OIG Investigative Reports, St. Louis, MO, June 08, 2011 - Woman Pleads Guilty to Charges of Federal Student Aid Fraud Involving  Webstser University in St. Louis
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT OF MISSOURI
RICHARD G. CALLAHAN
United States Attorney
NEWS RELEASE
For further information call (314) 539-2200
June 08, 2011
For Immediate Release
WOMAN PLEADS GUILTY TO CHARGES OF FEDERAL STUDENT AID FRAUD INVOLVING WEBSTER UNIVERSITY IN ST. LOUIS
St. Louis, MO: The United States Attorney's Office announced today that Michelle Owens submitted fraudulent Webster University applications and fraudulent Department of Education financial aid applications in the names of twenty-three different Leath, South Carolina Correctional Institution inmates seeking admission and student loans in the approximate amount of $467,500. Owens was confined to Leath from December 2007 to September 2008, and worked in the prison's Education Department, where she had access to the personal information of other inmates.
According to court documents, from December 2007 to October 2009, Owens submitted online applications for admission to Webster University's distance learning program in the names of individuals, who were inmates at Leath, without their knowledge.  Owens intended to use the financial aid funds for improper non-education purposes. On those applications, Owens used several residential addresses located in South Carolina.  Based upon the information contained on the applications Webster University accepted the individuals and mailed the letters to South Carolina.  Additionally, Owens falsely applied for federal student financial aid on behalf of the inmates by completing the Free Application for Federal Student Aid (FAFSA), either by computer over the internet or by paper application, using the inmates' personal information. Once Webster University received the required supporting documentation, they created a financial aid package for that "applicant" and mailed the award notification to the same South Carolina addresses controlled by Owens.
Owens received the excess financial aid intended for the inmate "applicants"  through Higher One, Inc. in the form of debit/MasterCard cards totaling $124,821, which she cashed or used for personal expenses.
MICHELLE N. OWENS, Florence, SC, pled guilty Monday, June 6, in Florence, SC to one count of federal student financial aid fraud and one felony count of mail fraud.
Student financial aid fraud carries a maximum penalty of five years in prison and/or fines up to $20,000. Mail fraud carries a maximum penalty of 20 years in prison and/or fines up to $250,000.
In determining the actual sentences, a Judge is required to consider the U.S. Sentencing Guidelines, which provide recommended sentencing ranges.
This case was investigated by the Federal Bureau of Investigation, the Postal Inspection Service and the Department of Education.  Assistant United States Attorney Hal Goldsmith is handling the case for the U.S. Attorney's Office, with the assistance of Assistant United States Attorney Brad Parham in the U.S. Attorney's Office in Florence, South Carolina.
Top
Printable view
Last Modified: 06/13/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov